BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-544
ALASKA NATIVE VILLAGE CORPORATION
ASSOCIATION, INC., ET AL.,

Petitioners,
JANET L. YELLEN, in her official capacity as Secretary
of the Treasury,
V.

CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, ET AL.,

Respondents.
As required by Supreme Court Rule 33. l(h), I certify
that the Reply Brief for Petitioners contains 5,998
words, excluding the parts of the Brief that are
exempted by Supreme Court Rule 33.l(d).

I declare under penalty of perjury that the foregoing

is true and correct.

Executed on April 9, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

